July 12, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of Medicare Payments Exceeding Charges for Outpatient Services
                Processed by Wisconsin Physicians Service Insurance Corporation in
                Jurisdiction 5 for the Period January 1, 2006, Through June 30, 2009
                (A-07-11-04174)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by Wisconsin Physicians Service Insurance
Corporation (WPS) in Jurisdiction 5. We will issue this report to WPS within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-04174.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
July 18, 2012

Report Number: A-07-11-04174

Ms. Jared A. Adair
Senior Vice President, Medicare Operations
Wisconsin Physicians Service Insurance Corporation
1717 West Broadway
P.O. Box 8190
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of Medicare Payments Exceeding Charges for Outpatient
Services Processed by Wisconsin Physicians Service Insurance Corporation in Jurisdiction 5 for
the Period January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-11-04174 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Jared A. Adair


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICARE PAYMENTS EXCEEDING
    CHARGES FOR OUTPATIENT SERVICES
PROCESSED BY WISCONSIN PHYSICIANS SERVICE
 INSURANCE CORPORATION IN JURISDICTION 5
     FOR THE PERIOD JANUARY 1, 2006,
         THROUGH JUNE 30, 2009




                        Daniel R. Levinson
                         Inspector General

                            July 2012
                          A-07-11-04174
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare claims submitted for
outpatient services. The Medicare contractors use the Fiscal Intermediary Standard System and
CMS’s Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.

Prior to Medicare contracting reform, Wisconsin Physicians Service Insurance Corporation
(WPS) processed claims for hospitals and other institutional providers from all 15 jurisdictions.
This workload is referred to as the Legacy Workload. As part of Medicare contracting reform,
CMS is transitioning the Legacy Workload to Medicare contractors, but during the transition
period WPS continues to process most of the Legacy Workload. In addition, with the
implementation of Medicare contracting reform, WPS became the Medicare contractor for
Jurisdiction 5 in four States—Iowa, Kansas, Missouri, and Nebraska—and assumed full
responsibility for Jurisdiction 5 in June 2008.

For this audit, we reviewed outpatient claims from both the Legacy and Jurisdiction 5
Workloads. (For purposes of this report, we refer to claims from the Legacy and Jurisdiction 5
Workloads as “Jurisdiction 5.”) During our audit period (January 2006 through June 2009),
WPS processed approximately 322.2 million line items for outpatient services in Jurisdiction 5,
of which 2,200 line items had (1) a Medicare line payment amount that exceeded the line billed
charge amount by at least $1,000 and (2) 3 or more units of service. (A single Medicare claim
from a provider typically includes more than one line item. In this audit, we did not review
entire claims; rather, we reviewed specific line items within the claims that met these criteria.
Because the terms “payments” and “charges” are generally applied to claims, we will use “line
payment amounts” and “line billed charges.”) We reviewed only 2,197 of the 2,200 line items
because 2 providers associated with 3 line items were either no longer in business or in
bankruptcy.


                                                 i
OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 2,197 selected line items for which WPS made Medicare payments to providers for
outpatient services during our audit period, 536 were correct. Providers refunded overpayments
on 52 line items totaling $525,919 before our fieldwork. The remaining 1,609 line items were
incorrect and included overpayments totaling $6,159,765, which the providers had not refunded
by the beginning of our audit. As of June 4, 2012, the amount of overpayment for one remaining
incorrect line item had not been determined because the line item had not been reprocessed and
the correct line payment amount had not been identified.

Of the 1,609 incorrect line items:

   •    Providers reported incorrect units of service on 1,182 line items, resulting in
        overpayments totaling at least $4,411,569 (the amount of overpayment for 1 of the 1,182
        line items had not been determined).

   •    Providers reported a combination of incorrect number of units of service claimed and
        incorrect HCPCS codes on 240 line items, resulting in overpayments totaling $1,096,995.

   •    Providers billed for unallowable services on 82 line items, resulting in overpayments
        totaling $279,838.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 67 line
        items, resulting in overpayments totaling $261,876.

   •    Providers did not provide the supporting documentation for 38 line items, resulting in
        overpayments totaling $109,487.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that WPS:

    •   recover the $6,159,765 in identified overpayments,




                                                 ii
    •   determine the amount of overpayment for the one incorrect line item payment and
        recover that amount,

    •   work with CMS to implement system edits that identify line item payments that exceed
        billed charges by a prescribed amount, and

    •   use the results of this audit in its provider education activities.

WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS generally concurred with our recommendations.
With respect to our first recommendation, WPS stated that it determined the claim level
overpayment amount on the incorrect lines to be approximately $6,098,149. Because WPS
provided the claim level overpayment amount as opposed to the line item overpayment,
additional line items that we did not review were included in WPS’s overpayment amount; these
additional items represent $155,473 more than the amount that our draft report had
recommended for recovery.

Our draft report included a recommendation related to the recovery of 48 incorrect line item
payments whose line payment amounts had not been determined. In comments on this
recommendation, WPS stated that it had determined the overpayments on 42 of the incorrect
lines, with 4 claims still in processing. One claim could not be adjusted as it was no longer
accessible in the Fiscal Intermediary Standard System. In comments on the last two
recommendations, WPS described corrective actions that it had taken or planned to take.

WPS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

When we issued our draft report, 48 of the 1,609 incorrect line items had not been reprocessed,
and the correct line payment amounts for these 48 line items had not been determined. After
submitting its written comments, WPS provided us with additional information supporting that it
had collected an additional $217,089 associated with 47 of the 48 remaining line items. One
claim had not been reprocessed, and the correct line payment amount had not been identified.
For this final report, we revised our findings and first two recommendations to reflect the
additional claim lines adjusted and amounts recovered. Thus, the amount recommended for
recovery was increased from $5,942,676 in the draft report to $6,159,765 in this final report to
reflect the additional $217,089 in recoveries associated with the 47 line items.




                                                  iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Wisconsin Physicians Service Insurance Corporation .................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 5
        Incorrect Number of Units of Service ............................................................................. 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes .............................. 5
        Services Not Allowable for Medicare Reimbursement .................................................. 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 6
        Unsupported Services ..................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 7

      WISCONSIN PHYSICIANS SERVICE INSURANCE
        CORPORATION COMMENTS ..................................................................................... 7

      OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................... 7

APPENDIX

      WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.
Part B of the Medicare program helps cover medically necessary services such as doctors’
services, outpatient care, home health services, and other medical services. Part B also covers
some preventive services.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. 2 In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.



                                                          1
Wisconsin Physicians Service Insurance Corporation

Prior to Medicare contracting reform, Wisconsin Physicians Service Insurance Corporation
(WPS) processed claims for hospitals and other institutional providers from all 15 jurisdictions.
This workload is referred to as the Legacy Workload. 3 As part of Medicare contracting reform,
CMS is transitioning the Legacy Workload to Medicare contractors, but during the transition
period WPS continues to process most of the Legacy Workload. 4 In addition, with the
implementation of Medicare contracting reform, WPS became the Medicare contractor for
Jurisdiction 5 in four States—Iowa, Kansas, Missouri, and Nebraska—and assumed full
responsibility for Jurisdiction 5 in June 2008.

For this audit, we reviewed outpatient claims from both the Legacy and Jurisdiction 5
Workloads. (For purposes of this report, we refer to claims from the Legacy and Jurisdiction 5
Workloads as “Jurisdiction 5.”) During our audit period (January 2006 through June 2009),
WPS processed approximately 322.2 million line items for outpatient services in Jurisdiction 5.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to providers for outpatient services were correct.

Scope

Of the approximately 322.2 million line items for outpatient services that WPS processed during
the period January 2006 through June 2009, 2,200 line items had (1) a Medicare line payment
amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of
service. 5 We reviewed only 2,197 of the 2,200 line items because 2 providers associated with 3
line items were either no longer in business or in bankruptcy.

We limited our review of WPS’s internal controls to those that were applicable to the selected
payments because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance


3
 The WPS Legacy workload had previously been processed by Mutual of Omaha. The Legacy Workload includes
claims submitted by providers who fall under the geographic jurisdiction of all 15 MACs.
4
 The Legacy Workload transition to Jurisdiction 1 occurred on April 19, 2010, and will be separately reported in
audit report A-07-11-04182. The Legacy Workload transition to Jurisdiction 4 occurred on October 18, 2010, and
will be separately reported in audit report A-07-11-04183. The Legacy Workload transition to Jurisdiction 12
occurred on February 21, 2011, and will be separately reported in audit report A-07-11-04184.
5
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”



                                                          2
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness of the file.

Our fieldwork included contacting WPS in Omaha, Nebraska, and the 242 providers in
Jurisdiction 5 that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items processed by
        WPS for providers that billed line items with (1) a Medicare line payment amount that
        exceeded the line billed charge amounts by at least $1,000 and (2) 3 or more units of
        service; 6

    •   identified 2,197 line items totaling approximately $9.4 million that Medicare paid to 242
        providers;

    •   contacted the 242 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with WPS and the providers; and

    •   provided the results of our review to WPS officials on October 24, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 2,197 selected line items for which WPS made Medicare payments to providers for
outpatient services during our audit period, 536 were correct. Providers refunded overpayments
on 52 line items totaling $525,919 prior to our fieldwork. The remaining 1,609 line items were

6
 For this audit, we reviewed those line items that met the stated parameters. We applied these parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.



                                                       3
incorrect and included overpayments totaling $6,159,765, which the providers had not refunded
by the beginning of our audit. As of June 4, 2012, the amount of overpayment for one remaining
incorrect line item had not been determined because the line item had not been reprocessed and
the correct line payment amount had not been identified.

Of the 1,609 incorrect line items:

    •   Providers reported incorrect units of service on 1,182 line items, resulting in
        overpayments totaling at least $4,411,569 (the amount of overpayment for 1 of the 1,182
        line items had not been determined).

    •   Providers reported a combination of incorrect number of units of service claimed and
        incorrect HCPCS codes on 240 line items, resulting in overpayments totaling $1,096,995.

    •   Providers billed for unallowable services on 82 line items, resulting in overpayments
        totaling $279,838.

    •   Providers used HCPCS codes that did not reflect the procedures performed on 67 line
        items, resulting in overpayments totaling $261,876.

    •   Providers did not provide the supporting documentation for 38 line items, resulting in
        overpayments totaling $109,487.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “… when HCPCS codes are required for
services, the units are equal to the number of times the procedure/service being reported was
performed.” 7 If the provider is billing for a drug, according to chapter 17, section 70, of the
Manual, “[w]here HCPCS is required, units are entered in multiples of the units shown in the


7
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.



                                                      4
HCPCS narrative description. For example, if the description for the code is 50 mg, and 200 mg
are provided, units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported an incorrect number of units of service on 1,182 line items, resulting in
overpayments totaling at least $4,411,569. (The amount of overpayment for 1 of the 1,182 line
items had not been determined as of June 4, 2012, because the line item had not been
reprocessed, and the correct line payment amount had not been identified.) The following
examples illustrate the incorrect units of service:

       •   One provider billed Medicare for an incorrect number of service units on 114 line items.
           Rather than billing 32 service units, the provider billed between 640 and 656 service
           units. These errors occurred because of an error in the provider’s billing system. As a
           result of these errors, WPS paid the provider $219,518 when it should have paid $10,097,
           an overpayment of $209,421.

       •   Another provider billed Medicare for an incorrect number of service units on 72 line
           items. Rather than billing between 1 and 3 service units (the correct range for the
           HCPCS codes associated with these line items), the provider billed between 42 and 45
           service units. These errors occurred because the provider’s chargemaster 8 was incorrect.
           As a result of these errors, WPS paid the provider $178,308 when it should have paid
           $7,941, an overpayment of $170,367.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect number of units of service claimed and incorrect
HCPCS codes on 240 line items. These errors resulted in overpayments totaling $1,096,995.

For example, one provider incorrectly billed Medicare for 106 service units of an injection of
clonidine hydrochloride with a HCPCS code of J0735 rather than billing for 1 service unit of
unclassified drugs with a HCPCS code of J3490. As a result of this error, WPS paid the provider
$230,987 when it should have paid $0. The provider refunded the entire incorrect payment of
$230,987.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 82 line items for which the services rendered were not
allowable for Medicare reimbursement, resulting in overpayments totaling $279,838.
8
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.


                                                           5
For example, 1 provider billed Medicare for 18 line items that were unrelated to outpatient
services. Specifically, the provider incorrectly billed Medicare outpatient services for dental
procedures that are not covered by Medicare. For one such procedure, the provider billed for the
surgical removal of an erupted tooth, which is not a covered procedure according to the
Medicare Benefit Policy Manual (Pub. No. 100-02, chapter 15, section 150). As a result of these
errors, WPS paid the provider $53,197 when it should have paid $0, an overpayment of $53,197.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 67 line items,
resulting in overpayments totaling $261,876.

For example, because of an error in the chargemaster, one provider billed Medicare for 31 line
items with the HCPCS code P9045 for a 250-milliliter (ml) infusion of the protein albumin,
rather than using the correct HCPCS code (P9041) for the 50-ml infusion of albumin that was
actually administered. As a result of this error, WPS paid the provider $132,744 when it should
have paid $37,415, an overpayment of $95,329.

Unsupported Services

Thirteen providers billed Medicare for 38 line items for which they did not provide supporting
documentation. The providers agreed to cancel the claims associated with these line items and
refund the combined $109,487 of overpayments received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on providers to notify the Medicare contractors of incorrect payments and on beneficiaries
to review their Medicare Summary Notice and disclose any overpayments. 9

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.




9
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         6
RECOMMENDATIONS

We recommend that WPS:

    •   recover the $6,159,765 in identified overpayments,

    •   determine the amount of overpayment for the one incorrect line item payment and
        recover that amount,

    •   work with CMS to implement system edits that identify line item payments that exceed
        billed charges by a prescribed amount, and

    •   use the results of this audit in its provider education activities.

WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS generally concurred with our recommendations.
With respect to our first recommendation, WPS stated that it determined the claim level
overpayment amount on the incorrect lines to be approximately $6,098,149. Because WPS
provided the claim level overpayment amount as opposed to the line item overpayment,
additional line items that we did not review were included in WPS’s overpayment amount; these
additional items represent $155,473 more than the amount that our draft report had
recommended for recovery.

Our draft report included a recommendation related to the recovery of 48 incorrect line item
payments whose line payment amounts had not been determined. In comments on this
recommendation, WPS stated that it had determined the overpayments on 42 of the incorrect
lines, with 4 claims still in processing. One claim could not be adjusted as it was no longer
accessible in the Fiscal Intermediary Standard System. In comments on the last two
recommendations, WPS described corrective actions that it had taken or planned to take.

WPS’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

When we issued our draft report, 48 of the 1,609 incorrect line items had not been reprocessed,
and the correct line payment amounts for these 48 line items had not been determined. After
submitting its written comments, WPS provided us with additional information supporting that it
had collected an additional $217,089 associated with 47 of the 48 remaining line items. One
claim had not been reprocessed, and the correct line payment amount had not been identified.
For this final report, we revised our findings and first two recommendations to reflect the
additional claim lines adjusted and amounts recovered. Thus, the amount recommended for
recovery was increased from $5,942,676 in the draft report to $6,159,765 in this final report to
reflect the additional $217,089 in recoveries associated with the 47 line items.




                                                   7
APPENDIX
                                         Page 1 of 2


APPENDIX: WISCONSIN PHYSICIANS SERVICE
  INSURANCE CORPORATION COMMENTS
Page 2 of 2
